ia*

- t*'1

No.

IN THE

Supreme Court of the United States
NATHANIEL KAIN HOOKER,
Petitioner
v.

PEOPLE OF THE STATE OF
ILLINOIS,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third District

MOTION FOR LEAVE TO PROCEED AS A VETERAN
I HEREBY CERTIFY, pursuant to Supreme Court Rule 40, that Nathaniel Kain
Hooker is a Veteran and is filing this Writ of Certiorari as exempt from the payment of court
fees and costs. Attached is Nathaniel Kain Hookers DD214 as proof of his Veteran Status.
' I declare under penalty of perjury that the forgoing is true and correct
EXECUTED this 26th day of October, 2020.
Respectfully Submitted,
By: /s/Nathaniel KainHooker
Pro Se

RECEWED
OCT 3 0 2020

i

Nathaniel Kain Hooker
538 Bond Avenue N.W.
Apartment 808
Grand Rapids, MI 49503
708-738-3822
hooker_nathaniel@yahoo.com

Additional material
from this filing is
available in the
Clerk's Office.

